                Some Improvements Have Been Made to
               Better Comply With Freedom of Information
                          Act Requirements

                                     May 2005

                       Reference Number: 2005-10-089




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       May 26, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Some Improvements Have Been Made to
                                    Better Comply With Freedom of Information Act Requirements
                                    (Audit # 200410032)

      This report presents the results of our Fiscal Year (FY) 2005 Freedom of Information
      Act (FOIA)1 review. The overall objective of this audit was to determine whether the
      Internal Revenue Service (IRS) improperly withheld information requested by taxpayers
      in writing, based on FOIA exemption (b)(3), in conjunction with Internal Revenue Code
      (I.R.C.) Section (§) 6103,2 and/or FOIA exemption (b)(7), or by replying the requested
      records were not available. Under § 1102 (d)(3)(A) of the IRS Restructuring and
      Reform Act of 1998,3 the Treasury Inspector General for Tax Administration is required
      to conduct periodic audits of a statistically valid sample of the total number of
      determinations made by the IRS to deny written requests to disclose information to
      taxpayers on the basis of I.R.C. § 6103 and/or the FOIA exemption (b)(7).
      In summary, in 7.1 percent of the FOIA and Privacy Act of 1974 (PA)4 cases we
      sampled, the IRS did not provide complete responses and improperly withheld
      information from requestors. This represents a higher percentage of improper
      withholdings than reported in our FY 2004 audit report (4.4 percent).5 In 4 of the 6 FOIA
      and PA error cases, the requestor asked for a document for a specific Document



      1
        5 U.S.C.A. § 552 (West Supp. 2003).
      2
        I.R.C. § 6103 (2001).
      3
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
      4
        5 U.S.C. § 552a (2000).
      5
        Improvements Are Needed to Ensure Compliance With the Freedom of Information Act (Reference
      Number 2004-40-064, dated March 2004).
                                                          2

Locator Number (DLN).6 The Disclosure office caseworkers did not recognize that the
DLNs may have a paper document associated with them and did not attempt to obtain
the requested information. In an additional case, a caseworker responded the DLN did
not exist when, in fact, it did.
In addition, the IRS improperly withheld information from requestors in 3.1 percent of
the I.R.C. § 6103 cases sampled where information was denied or the IRS replied
responsive records were not available. This represents a significantly lower percentage
of improper withholdings than the 14.6 percent we reported last year. There were
additional instances in which certain government agencies prepared standard
information request form letters that appeared to request more information than the IRS
provided. However, the Disclosure offices were able to provide us with supplementary
documentation stating the requestors wanted only some of the items that were listed on
the form letter. We confirmed with the requestor that the supplemental documentation
superseded the information requested on the form letters.
The percentage of untimely responses to FOIA and PA requestors also significantly
decreased to 13.1 percent of the cases in this year’s sample, as compared with the
untimely rates in our previous audit reports. In previous years’ audits, the percentage
ranged from 20 to 43 percent.
We recommended the Director, Communications and Liaison, clarify instructions for
responding to requests for documents with specific DLNs. We also recommended the
Director, Communications and Liaison, document agreements with repeat requestors.
The agreements should be in writing and specify the procedure the requestor and IRS
mutually developed.
Management’s Response: IRS management agreed with our recommendations. The
Director, Communications and Liaison, will revise the Internal Revenue Manual to clarify
when documents associated with a specified DLN should be ordered. The Director,
Communications and Liaison, will also issue guidance directing the field to document
agreements in writing with repeat requestors from governmental agencies.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




6
 A unique number assigned to every tax return to assist in controlling, identifying, and locating the return and other
documents.
                          Some Improvements Have Been Made to Better
                       Comply With Freedom of Information Act Requirements




                                                Table of Contents


Background ............................................................................................... Page 1
Some Responses to Requestors Were Not Complete .............................. Page 3
         Recommendations 1 and 2: .............................................................Page 6

In Certain Instances, Disclosure Offices Did Not Respond to
the Requestors in the Time Required by Law ........................................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures............................................................ Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 17
                Some Improvements Have Been Made to Better
             Comply With Freedom of Information Act Requirements

                             Section (§) 1102 (d)(3)(A) of the Internal Revenue Service
Background
                             (IRS) Restructuring and Reform Act of 19981 requires the
                             Treasury Inspector General for Tax Administration
                             (TIGTA) to conduct periodic audits of a statistically valid
                             sample of the total number of IRS determinations to deny
                             written requests to disclose information to taxpayers on the
                             basis of Internal Revenue Code (I.R.C.) § 61032 and/or
                             Freedom of Information Act (FOIA) exemption (b)(7).3
                             The FOIA requires records of the Federal Government to be
                             made available to the public upon request, unless
                             specifically exempt. FOIA exemption (b)(3)4 restricts the
                             release of records specifically exempt from disclosure by
                             statute (e.g., under I.R.C. § 6103). In turn, I.R.C. § 6103
                             provides a mechanism for taxpayers to request tax returns
                             and return information or to request that it be disclosed to
                             their designee. FOIA exemption (b)(7) restricts the release
                             of records or information compiled for law enforcement
                             purposes.
                             The Privacy Act of 1974 (PA)5 contains a provision that
                             prevents Federal Government agencies from relying on any
                             exemption in the PA to withhold records that are otherwise
                             available to an individual under the FOIA. We included PA
                             cases in the sampled population but only those partially or
                             fully denied under FOIA exemption (b)(3), in conjunction
                             with I.R.C. § 6103, and/or FOIA exemption (b)(7), to
                             determine if the IRS properly withheld the requested
                             information.
                             Within the IRS, the Small Business/Self-Employed Division
                             Office of Communications and Liaison, through its Office
                             of Disclosure, is responsible for ensuring the IRS complies
                             with FOIA, PA, and I.R.C. § 6103 requirements and
                             responds within the statutory time periods for FOIA and PA
                             requests. The Office of Disclosure provides to field offices



                             1
                               Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                             sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                             23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                             2
                               I.R.C. § 6103 (2001).
                             3
                               5 U.S.C.A. § 552 (West Supp. 2003).
                             4
                               5 U.S.C.A. § 552 (West Supp. 2003).
                             5
                               5 U.S.C. § 552a (2000).
                                                                                             Page 1
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements

                national oversight and guidance on procedural and policy
                matters and related training.
                The Disclosure offices process almost all the FOIA and PA
                requests received by the IRS. Written requests for
                information under I.R.C. § 6103 may be processed by either
                the individual Disclosure offices or other IRS offices having
                custody of the requested records.
                Of the 26,654 FOIA and PA requests processed through
                the Disclosure offices between April 1, 2004, and
                September 30, 2004, the Disclosure offices denied or
                partially denied 3,206 FOIA and PA requests (12 percent)
                based on FOIA exemption (b)(3), in conjunction with
                I.R.C. § 6103 and replied that records were not available
                for 7,097 FOIA requests (26.6 percent). Of the
                15,727 I.R.C. § 6103 requests processed during the same
                time period, the Disclosure offices denied information or
                told requestors records were not available for an estimated
                6,382 requests (40.6 percent).6 The remaining requests were
                either granted in full, withdrawn by the requestor, or not
                provided for some other miscellaneous reason.
                The FOIA, PA, and I.R.C. § 6103 requests received by the
                Disclosure offices are controlled on the Electronic
                Disclosure Information Management System (E-DIMS).
                The IRS is not required to track I.R.C. § 6103 requests for
                return or return information from taxpayers or individuals
                with a material interest (such as a spouse, child, estate, etc.).
                Nevertheless, the IRS has elected to track all I.R.C. § 6103
                requests received by the Disclosure offices, but requests
                received by other IRS offices are not controlled on the
                E-DIMS or otherwise inventoried. Therefore, the volume of
                I.R.C. § 6103 requests received outside of the Disclosure
                offices is unknown. As a result, we can statistically sample
                only the I.R.C. § 6103 requests processed directly by the
                Disclosure offices and tracked on the E-DIMS. The
                universe of I.R.C. § 6103 requests closed by other IRS
                offices cannot be determined or statistically sampled.



                6
                  This number was estimated by the TIGTA based on the ratio of cases
                in our sample where requestors were denied information or told records
                were not available (see Appendix I).
                                                                               Page 2
                    Some Improvements Have Been Made to Better
                 Comply With Freedom of Information Act Requirements

                                 Except for the limitations described above, this audit was
                                 conducted in accordance with Government Auditing
                                 Standards during the period November 2004 through
                                 March 2005. The records reviewed were from cases closed
                                 during the 6-month period of April 1, 2004, through
                                 September 30, 2004. The audit was performed at the Office
                                 of Communications and Liaison in Washington, D.C.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 In 6 (7.1 percent) of the 84 FOIA and PA cases sampled
Some Responses to Requestors
                                 and 3 (3.1 percent) of the 97 I.R.C. § 6103 cases sampled,
Were Not Complete
                                 the IRS did not provide complete responses and improperly
                                 withheld requested information. When projected to
                                 the population of 26,654 FOIA and PA cases and
                                 15,727 I.R.C. § 6103 cases closed by the Disclosure offices
                                 from April 1, 2004, through September 30, 2004 (the period
                                 of our sample), we estimate there were 736 FOIA and PA
                                 cases and 197 I.R.C. § 6103 cases in which the Disclosure
                                 offices did not provide available tax records when requested
                                 by taxpayers.7 As a result, while the extent of nondisclosure
                                 varied, the taxpayers’ rights were potentially violated and
                                 the IRS could risk incurring costs associated with
                                 administrative appeals and civil litigation initiated by those
                                 requestors improperly denied information.
                                 Chart 1 shows the percentage of improper withholdings for
                                 FOIA/PA and I.R.C. § 6103 requests identified during the
                                 last six audits (Fiscal Years [FY] 2000-2005).




                                 7
                                  See Appendix I for an explanation of our sampling methodology and
                                 Appendix IV for a description of the outcome measures.
                                                                                             Page 3
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements


                                  Chart 1: Audit Results - Improper FOIA/PA and
                                        I.R.C. § 6103 Request Withholdings
                                                  (FYs 2000-2005)
                           20%


                                                                                  14.6%

                                                            12.2%




                    Percentage
                                             10.7%    10.6%
                           10%        8.8%                             9.3%

                                                     7.0%           7.4%                  7.1%
                                         6.3%
                                                                                4.4%
                                                                                             3.1%



                                 0%
                                      FY2000 FY2001 FY2002 FY2003 FY2004 FY2005

                                                        FOIA/PA      IRC 6103

                Source: TIGTA audit reports for FYs 2000-2005.

                The IRS had a slightly higher percentage of improper FOIA
                and PA request withholdings during the period from which
                our sample cases were drawn (April 1, 2004, through
                September 30, 2004) than in the previous audit period. The
                rate of improper withholdings for I.R.C. § 6103 showed a
                significant decrease over the level reported in FY 2004.
                We analyzed the six FOIA and PA cases and the three
                I.R.C. § 6103 cases with improper withholdings from our
                samples and determined the types of information being
                improperly withheld have remained relatively constant over
                all six audit periods. The most common types of
                information withheld were miscellaneous IRS forms and
                documents associated with tax transcript information.
                Errors occurred mainly because caseworkers did not
                conduct complete research to identify the information
                available. Additional information should have been
                identified through more thorough research of the Integrated
                Data Retrieval System8 to identify older tax information and


                8
                  IRS computer system capable of retrieving or updating stored
                information; it works in conjunction with a taxpayer’s account records.
                                                                                            Page 4
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements

                documents related to various transactions. Some errors
                were due to simple oversights of requested information.
                In four of the six FOIA and PA error cases, the requestor
                asked for a document for a specific transaction code and
                included the Document Locator Number (DLN)9 in the
                request. The Disclosure office caseworkers did not
                recognize that the DLNs may have a paper document
                associated with them and did not attempt to obtain the
                requested information. The caseworkers replied the
                transaction was computer generated and, therefore, there is
                no paper document responsive to the request. In an
                additional case, the caseworker responded the DLN did not
                exist when, in fact, it did. The Internal Revenue Manual
                (IRM) states that, when a request is submitted for records
                identified by DLN and the request also includes the tax form
                and tax period, Disclosure office personnel should attempt
                to locate the responsive records.
                We also determined certain repeat requestors, such as
                State governments and probation offices, use self-designed
                form letters for their I.R.C. § 6103 information requests.
                For example, we initially identified an additional
                13 I.R.C. § 6103 cases that used such a form letter. It
                appeared that these 13 cases were errors because the
                Disclosure office did not provide the requestors with all the
                information items listed on the form letter. However, the
                Disclosure offices were able to provide us with
                supplemental documentation stating the requestors wanted
                only some of the items that were listed on the form letter.
                We confirmed with the requestors that the supplemental
                documentation superseded the information requested on the
                form letters. The requestors and the Disclosure offices have
                agreed to a follow-up procedure if the requestor needs
                additional information.




                9
                  A unique number assigned to every tax return to assist in controlling,
                identifying, and locating the return and other documents.
                                                                                  Page 5
                     Some Improvements Have Been Made to Better
                  Comply With Freedom of Information Act Requirements

                                   Recommendations

                                   The Director, Communications and Liaison, should:
                                   1. Clarify procedures for responding to requests for
                                      documents with DLNs that represent
                                      computer-generated transactions. The procedures
                                      should specify the types of transactions that are
                                      computer-generated and have no associated paper
                                      documents. The procedures should also provide
                                      guidance on searching for documents with transactions
                                      that may not be computer generated.
                                   Management’s Response: The Director, Communications
                                   and Liaison, will revise IRM 11.3 Section 13, Freedom of
                                   Information Act, to clarify when documents associated with
                                   a specified DLN should be ordered.
                                   2. Document agreements with repeat requestors. The
                                      agreements should be in writing and specify the
                                      procedure the requestor and IRS mutually developed.
                                   Management’s Response: The Director, Communications
                                   and Liaison, will issue guidance directing the field to
                                   document agreements in writing with repeat requestors from
                                   governmental agencies in the IRS’ response letters.
                                   The FOIA requires Federal Government agencies to
In Certain Instances, Disclosure
                                   determine whether to comply within 20 workdays10 after the
Offices Did Not Respond to the
                                   receipt of a FOIA request by the Disclosure office. Federal
Requestors in the Time
                                   Government agencies are to immediately notify the person
Required by Law
                                   making the request of the resulting determination, the
                                   reasons for the determination, and the right to appeal the
                                   determination. For PA cases, the IRS must respond within
                                   30 days of the taxpayer’s request. The IRS may request an
                                   automatic 10-day extension and/or voluntary extension in
                                   excess of the initial statutory 20-day period for FOIA
                                   requests.11 The requestor must agree to the voluntary
                                   extension, and the IRS must notify the requestor of its
                                   determination by the end of the extension period.

                                   10
                                      Excluding Saturdays, Sundays, and legal public holidays.
                                   11
                                     The 10-day extension is “automatic” in that it is solely at the
                                   discretion of the Disclosure officer; the voluntary extension requires
                                   notification to the requestor who may then respond and file an appeal.
                                   Either or both extensions may be used in a given case.
                                                                                                   Page 6
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements

                For 11 (13.1 percent) of the 84 cases in the FOIA and PA
                request random sample, the Disclosure office did not
                respond to the requestors in the time required by law. This
                represents a significant decrease in the number of untimely
                cases over any of the prior audit periods. We estimate from
                the population of 10,303 cases closed from April 1, 2004,
                through September 30, 2004, there were 1,349 FOIA and
                PA requests not processed in accordance with the statutory
                provisions. In these instances, taxpayers did not receive the
                level of service envisioned under the statute.
                We did not evaluate the timeliness of responses to FOIA
                and PA requests in the FY 2004 audit. Chart 2 shows the
                cases reviewed for the FY 2005 audit had a smaller
                percentage of untimely cases than that reported for
                FY 2003.
                                      Chart 2: Comparison of FYs 2000-2005
                                          Untimely FOIA/PA Responses


                                50%
                                                                      43.50%
                                40%
                                      33.80%
                   Percentage




                                30%
                                               20.10%     22.70%
                                20%
                                                                               13.10%
                                10%

                                0%
                                       2000     2001       2002       2003     2005
                                                        Fiscal Year


                Source: TIGTA audit reports for FYs 2000-2005.

                We identified 2 primary reasons the 11 FOIA and PA cases
                were untimely. In 7 of the 11 cases, before the response
                could be provided, Disclosure office personnel needed
                information from other IRS functions such as Collection,
                Examination, or Criminal Investigation. However, due to
                the slow response from other IRS functions, Disclosure
                office personnel were unable to provide a timely response to
                the requestor. In the remaining four cases, Disclosure office
                personnel needed additional time to copy and review a large

                                                                                  Page 7
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements

                volume of documents, or other higher priority requests were
                processed first.
                In 6 (55 percent) of the 11 untimely cases, the IRS had not
                requested the available 10-day extension and/or the
                voluntary extension. Three of these 6 cases were closed
                within the automatic 10-day extension period, and would
                have been in compliance with the FOIA, if the IRS had
                exercised this option.
                In response to previous TIGTA audit reports, the IRS took
                actions to improve timeliness. The Director, Office of
                Government Liaison and Disclosure initiated biweekly
                conference calls with Disclosure Area Managers to address
                inventory imbalances and over-age cases. Also, the new
                internal peer review process included an evaluation of case
                timeliness. These efforts should continue to improve case
                timeliness.




                                                                      Page 8
                       Some Improvements Have Been Made to Better
                    Comply With Freedom of Information Act Requirements

                                                                                    Appendix I


                         Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the Internal Revenue Service (IRS)
improperly withheld information requested by taxpayers in writing, based on Freedom of
Information Act (FOIA) exemption (b)(3),1 in conjunction with Internal Revenue Code (I.R.C.)
Section (§) 6103,2 and/or FOIA exemption (b)(7),3 or by replying the requested records were not
available. To accomplish this objective, we:
I.      Determined if the IRS Disclosure offices adhered to statutory FOIA and Privacy Act of
        1974 (PA)4 requirements and procedural requirements.
        A. Obtained a national extract from the Electronic Disclosure Information Management
           System (E-DIMS) for the period April 1, 2004, through September 30, 2004, and
           identified 10,303 FOIA and PA cases closed as denied or partially denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
           (b)(7), or where the IRS replied responsive records did not exist. We validated the
           extract by performing specialized queries.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 8.38 percent, and an estimated precision of + 5 percent. This sampling
           methodology was chosen so that we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or where requestors were told records were not available. The
           sampling plan and methodology are the same as those used in prior audits.
        C. Randomly sampled 84 of the 10,303 FOIA and PA cases that were partially or fully
           denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or
           FOIA exemption (b)(7), or where requestors were told records were not available.
        D. Reviewed the 84 sampled cases and determined if the decision to withhold
           information was appropriate, the record search was adequate, and the determination
           was made timely.
        E. Projected the number of improper withholdings in the range of 262 to 1,210
           (2.5 percent to 11.7 percent) FOIA and PA cases that were partially or fully denied
           based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or where requestors were told records were not available. The

1
  5 U.S.C.A. § 552 (West Supp. 2003).
2
  I.R.C. § 6103 (2001).
3
  5 U.S.C.A. § 552 (West Supp. 2003).
4
  5 U.S.C. § 552a (2000).
                                                                                         Page 9
                   Some Improvements Have Been Made to Better
                Comply With Freedom of Information Act Requirements

         projection was made using attribute sampling, with a 90 percent confidence level and
         an actual error rate of 7.1 percent. As a result, the actual precision factor was
         4.60 percent.
      F. Projected the number of untimely determinations in the range of 609 to
         2,089 (5.9 percent to 20.2 percent) FOIA and PA cases that were partially or fully
         denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or
         FOIA exemption (b)(7), or where requestors were told records were not available.
         The projection was made using attribute sampling, with a 90 percent confidence level
         and an actual error rate of 13.1 percent. As a result, the actual precision factor was
         7.18 percent.
      G. Discussed all exception cases with the National FOIA Team Leader.
II.   Determined if the IRS Disclosure offices adhered to legal requirements when denying
      written requests received from taxpayers under I.R.C. § 6103.
      A. Obtained a national extract from the E-DIMS for the period April 1, 2004, through
         September 30, 2004, and identified 15,727 I.R.C. § 6103 (c) and (e) requests.
      B. Designed an attribute sample based on a 90 percent confidence level, an expected
         error rate of 9.87 percent, and an estimated precision of + 5 percent. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. § 6103 (c) and (e)
         requests where information was partially or fully denied or where the IRS replied that
         responsive records did not exist.
      C. Initially randomly sampled 325 of the 15,727 I.R.C. § 6103 (c) and (e) closed cases.
         We reviewed the first 239 cases sampled to obtain the required number of cases to
         statistically project our results.
         1. Determined that 97 (40.6 percent) of the 239 randomly sampled and reviewed
            cases included instances where information was partially or fully denied or where
            the IRS replied that responsive records did not exist.
         2. Based on an initial analysis of the 239 randomly sampled cases, estimated the
            population of 15,727 closed § 6103 (c) and (e) requests contained 6,382 where
            information was partially or fully denied or where the IRS replied responsive
            records did not exist.
      D. Reviewed the 97 cases where information was partially or fully denied, or where the
         IRS replied that responsive records did not exist, and determined if the decision to
         withhold the information based on I.R.C. § 6103 was appropriate.




                                                                                        Page 10
             Some Improvements Have Been Made to Better
          Comply With Freedom of Information Act Requirements

E. Projected the number of improper withholdings in the range of 3 to 418 (0 percent to
   6.54 percent) for the § 6103 (c) and (e) requests where information was partially or
   fully denied or where the IRS replied that responsive records did not exist. The
   projection was made using attribute sampling, with a 90 percent confidence level and
   an actual error rate of 3.1 percent. As a result, the actual precision factor was
   3.45 percent.
F. Discussed all exception cases with the National FOIA Team Leader.




                                                                                Page 11
                    Some Improvements Have Been Made to Better
                 Comply With Freedom of Information Act Requirements

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Joan R. Floyd, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Michael Della Ripa, Auditor
Frank Maletta, Auditor




                                                                                      Page 12
                   Some Improvements Have Been Made to Better
                Comply With Freedom of Information Act Requirements

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Communications and Liaison, Small Business/Self-Employed Division SE:T:CL
Director, Disclosure SE:S:CL:D
Freedom of Information Act Team Leader SE:S:CL:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 13
                        Some Improvements Have Been Made to Better
                     Comply With Freedom of Information Act Requirements

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Taxpayer Rights – Potential; 736 responses to Freedom of Information Act (FOIA)1 or
         Privacy Act of 1974 (PA)2 requests where information was improperly withheld during
         the 6-month period of April 1, 2004, through September 30, 2004 (see page 3).
Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of FOIA and PA requests that
were closed nationally during the period April 1, 2004, through September 30, 2004, as 1) a full
or partial denial with either FOIA exemption (b)(3), in conjunction with Internal Revenue Code
(I.R.C.) § 6103,3 and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
information, or 2) where the Internal Revenue Service (IRS) replied responsive records did not
exist. We arrived at the estimate by:
    •    Multiplying the number of requests closed as partially or fully denied based on FOIA
         exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7), or
         where the IRS replied responsive records did not exist, by the error rate of cases
         reviewed. A case was considered an “error” if a Disclosure office improperly withheld
         information that was available and could have been released under the FOIA and PA.
         10,303 * 7.142 percent4 = 736 cases.
Type and Value of Outcome Measure:
    •    Taxpayer Rights – Potential; 197 responses to I.R.C. § 6103 requests where information
         was improperly withheld during the 6-month period of April 1, 2004, through
         September 30, 2004 (see page 3).
Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of I.R.C. § 6103 (c) and (e)
requests that were closed nationally during the 6-month period April 1, 2004, through

1
  5 U.S.C.A. § 552 (West Supp. 2003).
2
  5 U.S.C. § 552a (2000).
3
  I.R.C. § 6103 (2001).
4
  This figure was rounded to 7.1 percent for report presentation purposes; however, the actual calculation was
performed as shown.
                                                                                                            Page 14
                        Some Improvements Have Been Made to Better
                     Comply With Freedom of Information Act Requirements

September 30, 2004. The Disclosure offices are not required to input a disposition code showing
how I.R.C. § 6103 cases are closed (granted, denied, etc.). We estimated the number of errors
for the 6-month period by:
    •    Identifying 15,727 closed I.R.C. § 6103 (c) and (e) requests.
    •    Randomly selecting for review 239 of these cases to estimate the universe of denied,
         partially denied, or no requested record available cases closed during the period
         April 1, 2004, through September 30, 2004.
    •    Multiplying the total number of closed requests in the audit universe by the percentage of
         cases in the sample where information was partially or fully denied or where the IRS
         replied that responsive records did not exist (97 of 239 or 40.6 percent).
         15,727 * 40.586 percent5 = 6,382 cases.
    •    Multiplying the estimated universe of cases where information was partially or fully
         denied, or where the IRS replied that responsive records did not exist, by the error rate for
         the cases reviewed. A case was considered an “error” if the Disclosure office improperly
         withheld information from the requestor.
         6,382 * 3.093 percent6 = 197 cases.
Type and Value of Outcome Measure:
    •    Taxpayer Rights – Potential; 1,349 FOIA and PA requests partially or fully denied under
         FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
         (b)(7), or where the IRS replied responsive records did not exist that were not processed
         timely during the 6-month period April 1, 2004, through September 30, 2004
         (see page 6).
Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of FOIA and PA requests that
were closed nationally during the 6-month period of April 1, 2004, through
September 30, 2004, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for
withholding information, or 2) where the IRS replied responsive records did not exist. We
arrived at the estimate by:
    •    Multiplying the number of requests closed as partially or fully denied based on FOIA
         exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7), or



5
  This figure was rounded to 40.6 percent for report presentation purposes; however, the actual calculation was
performed as shown.
6
  This figure was rounded to 3.1 percent for report presentation purposes; however, the actual calculation was
performed as shown.
                                                                                                            Page 15
                        Some Improvements Have Been Made to Better
                     Comply With Freedom of Information Act Requirements

        where the IRS replied responsive records did not exist, by the percentage of untimely
        responses.
        10,303 * 13.095 percent7 = 1,349 cases.




7
 This figure was rounded to 13.1 percent for report presentation purposes; however, the actual calculation was
performed as shown.
                                                                                                           Page 16
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements

                                                      Appendix V


   Management’s Response to the Draft Report




                                                          Page 17
   Some Improvements Have Been Made to Better
Comply With Freedom of Information Act Requirements




                                                      Page 18
